No.
IN THE SUPREME COURT OF THE UNITED STATES
2021 TERM

 

MAURICE ATKINSON
Petitioner

v.

UNITED STATES OF AMERICA
Respondent

 

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

Petitioner, Maurice Atkinson, pursuant to Title 18, United States Code,
Section 3006A(d)(6) and Rule 39 of the United States Supreme Court, asks leave to
file the attached Petition for Writ of Certiorari without prepayment of costs, and to
proceed in forma pauperis. Pursuant to an appointment under the Criminal Justice
Act of 1964, as amended, defense counsel was appointed to represent the Petitioner
in the United States District court for the Middle District of Pennsylvania and the
United States Court of Appeals for the Third Circuit.

Respectfully submitted,

THOMAS, THOMAS & HAFER, LLP

 

PA Attorney ID#55741

PO Box 999

Harrisburg, PA 17108

(717) 441-3952 - Phone

(717) 237-7105 - Fax

Attorney for Petitioner, Maurice Atkinson

Date: April 15, 2021
